No.
IN THE SUPREME COURT OF THE UNITED STATES

AGUSTIN CHAVEZ, PETITIONER
v.
STATE OF FLORIDA, RESPONDENT.
_____________

ON PETITION FOR A WRIT OF CERTIROARI TO
THE DISTRICT COURT OF APPEAL OF FLORIDA, FOURTH DISTRICT
_____________
CERTIFICATE OF SERVICE OF MOTION TO PROCEED IN FORMA PAUPERIS
AND PETITION FOR A WRIT OF CERTIORARI

CAREY HAUGHWOUT

Public Defender

Logan T. Mohs

Assistant Public Defender
Counsel of Record
Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street
West Palm Beach, FL 33401
(561) 355-7600
appeals@ pd15.state.fl.us
lmohs@pd15.state.fl.us

I HEREBY CERTIFY that I am a member of the Bar of the Supreme Court of
the United States and represent Petitioner in this case; that all parties required to
be served with the Motion to Proceed In Forma Pauperis and Petition for a Writ of
Certiorari have been served; and that service was made by sending a true and
accurate copy thereof via email pursuant to this Court’s April 15, 2020 Order
allowing for only electronic service by agreement of the parties (agreement was
obtained October 21, 2020). Service has been made upon:
Melynda L. Melear
Counsel for the State of Florida
Senior Assistant Attorney General
1515 North Flagler Drive, Suite 900
West Palm Beach, Florida 33401
CrimAppWPB@MyFloridaLegal.com
Melynda.Melear@MyFloridaLegal.com
Respectfully submitted,
CAREY HAUGHWOUT
Public Defender
15th Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561) 355-7600
_____________________
Logan T. Mohs
Assistant Public Defender
Counsel of Record
appeals@pd15.state.fl.us
lmohs@pd15.state.fl.us

1

